Winittb States Court of Sppeate
Jfor tlje CtgFjtl) Circuit

No. 19-1443
Aimee Lewis
Plaintiff - Appellant
v.
Seventh Circuit Court - South Dakota Unified Judicial System, individual and
official capacity; Rapid City Police Department, individual and official capacity;
Pennington County Sheriffs Department, individual and official capacity; Debra
Diana Watson, Watson Law Office, P.C. in individual and official capacity;
Joshua Gednalske, individual and official capacity; Dwayne Gednalske, individual
and official capacity; Janice Gednalske, individual and official capacity
Defendants - Appellees
Appeal from United States District Court
for the District of South Dakota - Rapid City
Submitted: January 29, 2020
Filed: February 12, 2020
[Unpublished]
Before SHEPHERD, STRAS, and KOBES, Circuit Judges.

PER CURIAM.

Appellate Case: 19-1443

Page: 1

Date Filed: 02/12/2020 Entry ID: 4880843

Aimee Lewis appeals the district court’s1 dismissal, under Younger v. Harris,
401 U.S. 37 (1971), of her 42 U.S.C. § 1983 complaint alleging violations of her
constitutional rights in a pending state court custody action. Upon review, we find
that the district court did not abuse its discretion in abstaining under Younger. See
Sprint Commc’ns, Inc, v. Jacobs, 571 U.S. 69,78 (2013) (Younger abstention applies
in state civil proceedings involving orders uniquely in furtherance of state courts’
ability to perform their judicial functions); Middlesex Cty. Ethics Comm, v. Garden
State Bar Ass’n, 457 U.S. 423, 432 (1982) (Younger abstention requires that state
proceeding is judicial, implicates important state interests, and provides adequate
opportunity to raise constitutional challenges); see also Minn. Living Assistance, Inc,
v. Peterson, 899 F.3d 548, 551 (8th Cir. 2018) (abuse of discretion review of district
court’s decision to abstain under Younger; court abuses its discretion when it makes
error of law). We conclude that there is no merit to the contentions that Younger
abstention was unavailable because of Federal Rule of Civil Procedure 24 or because
this case involves an assertion of Lewis’s federal constitutional rights. Moore v.
Sims, 442 U.S. 415, 435 (1979) (approving application of Younger abstention in
child-welfare litigation in the face of federal constitutional claims); see Disability
Advocates, Inc, v. New York Coal, for Quality Assisted Living, Inc., 675 F.3d 149,
160 (2d Cir. 2012) (intervention does not provide a basis for jurisdiction and cannot
be used to circumvent Younger abstention).
The judgment is affirmed. See 8th Cir. R. 47B.

^he Honorable Jeffrey L. Viken, United States District Judge for the District
of South Dakota, adopting the report and recommendations of the Honorable Daneta
Wollmann, United States Magistrate Judge for the District of South Dakota.
-2-

Appellate Case: 19-1443

Page: 2

Date Filed: 02/12/2020 Entry ID: 4880843

rr
V

>. -

’

Case 5:18-cv-05071-JLV Document 63 Filed 01/24/19 Page 1 of 1 PagelD #: 500

UNITED STATES DISTRICT COURT
DISTRICT OF SOUTH DAKOTA
WESTERN DIVISION
CIV. 18-5071-JLV

AIMEE LEWIS,
Plaintiff,

JUDGMENT
vs.
SEVENTH CIRCUIT COURT - SOUTH
DAKOTA UNIFIED JUDICIAL SYSTEM,
in its official and individual capacity;
RAPID CITY POLICE DEPARTMENT, in
its official and individual capacity;
PENNINGTON COUNTY SHERIFF’S
OFFICE, in its official and individual
capacity; DEBRA WATSON, in her
official and individual capacity;
WATSON LAW OFFICE, P.C., in its
official and individual capacity;
JOSHUA GEDNALSKE, in his official
and individual capacity; DWAYNE
GEDNALSKI, in his official and
individual capacity; and JANICE
GEDNALSKE, in her official and
individual capacity,
Defendants.
Consistent with the court’s order (Docket 62), it is
ORDERED, ADJUDGED AND DECREED that judgment is entered in favor
of defendants and against plaintiff.
Dated Januaiy 24, 2019.
BY THE COURT:

/s/ ‘Jeffrey L. Vikm
JEFFREY L. VIKEN
CHIEF JUDGE

I-;-*,. -

Case 5:18-CV-05071-JLV Document 42 Filed 11/28/18 Page 1 of 9 PagelD #: 357

UNITED STATES DISTRICT COURT
DISTRICT OF SOUTH DAKOTA
WESTERN DIVISION
5:18-CV-05071-JLV

AIMLEE LEWIS,
Plaintiff,
vs.
SEVENTH CIRCUIT COURT - SOUTH
DAKOTA UNIFIED JUDICIAL SYSTEM,
in its official and individual capacity;
RAPID CITY POLICE DEPARTMENT, in
its official and individual capacity;
PENNINGTON COUNTY SHERIFF’S
OFFICE, in its official and individual
capacity; DEBRA WATSON, in her
official and individual capacity;
WATSON LAW OFFICE, P.C., in its
official and individual capacity;
JOSHUA GEDNALSKE, in his official
and individual capacity; DWAYNE
GEDNALSKI, in his official and
individual capacity; and JANICE
GEDNALSKE, in her official and
individual capacity,

REPORT AND RECOMMENDATION

Defendants.
INTRODUCTION
Plaintiff Aimlee Lewis, appearing pro se, filed a complaint pursuant to
42 U.S.C. § 1983 against the defendants alleging numerous violations of her
civil rights. Ms. Lewis also asserts a Bivens claim.

(Docket 1). The case was

referred to this Magistrate Judge pursuant to 28 U.S.C. § 636(b)(1)(B) and
Chief Judge Jeffrey L. Viken’s Standing Order dated April 1, 2018.
22).

(Docket

rr

v-- , -

*

BACKGROUND INFORMATION
Ms. Lewis asserts both a § 1983 claim and a Bivens claim. In Ms. Lewis’
§ 1983 claim, she alleges her federal constitutional or statutory rights were
violated by the defendants in the following ways:
(1) A declaratory decree was violated. (2) the State of South Dakota
revoked my parental rights Svithout any’ preponderance of evidence.
(3) Violation of the Due Process Clause of the 14th Amendment. (4)
Violations of the First, Fourth, Fifth, Ninth and Fourteenth
Amendments. (5) 18 USC Ch. 224: Protection of Witnesses Section 3524[,] 28 U.S. Code 1738 A. (6) Section 35 of the Judiciary
Act of 1789,1 Stat. 73. 92.
(Docket 1 at p. 5). Ms. Lewis alleges the following facts in support of her
claims:
Joshua Gednalske, Janice Gednalske, and Dwayne Gednalske Removed and harbored my five-year-old son [B.] -I had full legal and
physical custody of [B.] as per a court order from the State of South
Dakota.
Watson Law Office, P.C. - Watson knew of the existing, legal court
order but ignored it. Debra Watson knowlingly [sic] motioned the
Seventh Circuit Court to uphold a temporary shelter order that was
invalid. Watson also requested supervised visitation claiming a
need without providing any evidence. The Rapid City Police
Department and Pennington County Sheriffs Department - I
contacted them multiple times requesting that they return my son
to me and therefore uphold the legal current, custody
court order from South Dakota but they refused.
Seventh Circuit Court - Was provided with documentation in a
reasonable amount of time for review, before the hearing, that was
Documents show
to take place on September 21st, 2018.
cancellation of temporaiy shelter order, a police report dispelling
allegations, aund South Dakota statutes violated. Without
preponderance of evidence, my parental rights were revoked. Pro
Se rights violated.
(Id. at p. 8).

Ms. Lewis’ claim for relief seeks $20,000,000 and asks that her

son be returned to her custody.

(Id. at p. 9). Ms. Lewis’ civil cover sheet and
2

i

Case 5:18-cv-05071-JLV Document 42 Filed 11/28/18 Page 3 of 9 PagelD #: 359

supplement to the Complaint asserts her claims are a “class action lawsuit.”
(Dockets 2 8s 18) (internal quotation marks and capitalization omitted).
Defendant Seventh Circuit Court-South Dakota Unified Judicial System
filed a motion to dismiss and supporting legal memorandum seeking dismissal
pursuant to Fed. R. Civ. P. 12(b).

(Dockets 15 & 16). It asserts dismissal

“based on Eleventh Amendment immunity, lack of subject matter jurisdiction
and . . . the Rooker-Feldman Doctrine, judicial immunity, and abstention.”
(Docket 15 at p. 1).

Defendant Pennington County Sheriffs Department

moved to dismiss the Complaint pursuant Fed. R. Civ. P. 12(b)(1) and 12(h)(3)
for lack of subject matter jurisdiction and Fed. R. Civ. P 12(b)(6) for failure to
state a claim upon for which relief can be granted (Docket 27). The
Pennington County Sheriffs Department likewise asserts that the RookerFeldman Doctrine divests this court of jurisdiction. Defendants Debra Watson
and Watson Law Office P.C. (collectively “Watson”) filed a motion to dismiss on
the grounds that Watson is neither a federal or state actor, therefore the
Complaint fails to state a claim upon which relief can be granted pursuant to
Fed. R. Civ. P 12(b)(6).

(Docket 29).

Defendants Joshua Gednalske, Dwayne

Gednalske and Jancie Gednalske, (collectively “Gednalske”) appearing pro se,
filed a motion to dismiss also seeking dismissal on the grounds of Fed. R. Civ.
P 12(b)(6), given that they are neither federal employees or agents, nor state or
local officials, and the Complaint fails to state a claim upon which relief can be
granted.

(Docket 32).

Defendant Rapid City Police Department (“RCPD”)
3

!

!

Case 5:18-cv-05071-JLV Document 42 Filed 11/28/18 Page 4 of 9 PagelD #: 360

moved to dismiss the Complaint because the RCPD is not an entity amenable
to suit; the Complaint fails to state a claim under Fed. R. Civ. P 12(b)(6); and
because the federal court lacks jurisdiction.

(Docket 35).

Ms. Lewis has filed various responsive pleadings. In large part, these
filings detail conversations between Ms. Lewis and Josh Gednalske’s attorney,
Debra Watson, as well as correspondence with the Seventh Judicial Circuit
Court Judge assigned to the pending child custody dispute between Ms. Lewis
and Josh Gednalske.

(Docket 18-1).

Ms. Lewis’ responsive pleadings and

attachments assert that the child custody dispute is not being properly
handled by the Seventh Judicial Circuit, the Rapid City Police Department, and
the Pennington County Sheriffs Office.

(Docket 21, Attachments 1-12). The

documents purport to show that the state court entered an Interim Custody
Order on September 21, 2018 with an evidentiary hearing for permanent
physical custody to be held on November 20, 2018.

(Docket 21-6).

It appears

that the custody hearing has been continued until November 30, 2018.
(Docket 39, 40).
ANALYSIS
The court must examine whether it should abstain from exercising
jurisdiction under the principles of federal-state comity articulated in Younger
v. Harris. 401 U.S. 37 (1971) (federal courts are to avoid interference with
ongoing state criminal proceedings if the state court provides an adequate
forum to present any federal constitutional challenges).
4

“Under current

I

j-JL,

Case 5:18-cv-05071-JLV Document 42 Filed 11/28/18 Page 5 of 9 PagelD #: 361

-Younger v. Harris doctrine, federal courts should abstain from exercising their
jurisdiction if (1) there is an ongoing state proceeding, (2) that implicates
important state interests, and (3) that provides an adequate opportunity to
raise any relevant federal questions.” Tony Alamo Christian Ministries v.
Selig, 664 F.3d 1245, 1249 (8th Cir. 2012) (citing Plouffe v. Ligon, 606 F.3d
890, 894-95 (8th Cir. 2010)); see also Ohio Civil Rights Commission v. Dayton
Christian Schools. 477 U.S. 619, 627 (1986) (the principals of comity and
federalism underlying Younger are equally applicable “to civil proceedings in
which important state interests are involved.”); Silverman v. Silverman, 267
F.3d 788, 792 (8th Cir. 2001); Middlesex County Ethics Comm, v. Garden State
Bar Association. 457 U.S. 423, 432 (1982); Barzilav v. Barzilav, 536 F.3d 844,
850 (8th Cir. 2008) (“In order for a federal court to abstain under the Younger
doctrine there must be an ongoing state proceeding which implicates important
state interests and which affords an adequate opportunity to raise the federal
issues.”)
A district court’s decision to decline jurisdiction may be sua sponte. See
Bellotti v. Baird. 428 U.S. 132, 143 n. 10 (1976); Guillemard-Ginorio v.
Contreras-Gomez, 585 F.3d 508, 517-18 (1st Cir. 2009). Younger “requires a
federal court to abstain not only when and while the state trial court
proceedings [are] ongoing, but until the state [parties] exhaust [their] appellate
remedies.” Tony Alamo Christian Ministries, 664 F.3d at 1250.

5

r

Case 5:18-cv-05071-JLV Document 42 Filed 11/28/18 Page 6 of 9 PagelD #: 362

The District Court of Minnesota addressed the Younger doctrine in
Carlson v. County of Ramsey, Minnesota. Civ. No. 16-765, 2016 WL 3352196
(D. Minn. June 15, 2016). In Carlson, the non-custodial parent filed suit in
federal district court under 42 U.S.C. § 1983 challenging various state court
orders and actions associated with a protracted custody dispute. Id. at If 1.
Carlson claimed that the state court judges, custody evaluators and other
person involved with custody dispute violated his constitutional rights and
committed tortious actions. kL at ^[4. Carlson requested the federal district
court reverse the prior custody order, the prior contempt order, and the prior
restraining orders, as well as federal intervention in the ongoing custody
proceedings. IcL The court concluded that the Younger abstention doctrine
precluded the federal court from interfering with the pending child custody
proceedings. kL at f 6. In reaching this conclusion, the court relied on the
rationale set forth in the following well-settled case law:
The state proceedings involve “orders uniquely in furtherance of the
state courts’ ability to perform their judicial functions,” Sprint
Comms. Inc, v. Jacobs. 571 U.S. 69, 78 (2013), such as the custody,
contempt, and disclosure orders that “are integral to the State
court’s ability to perform its judicial function in ... custody
proceedings,” Falco v. Justices of the Matrimonial Parts of Sup. Ct.
of Suffolk Cty., 805 F.3d 425, 428 (2d Cir. 2015). They also implicate
important state interests in domestic relations, a traditional area of
state concern where federal abstention is particularly appropriate.
See Elk Grove Unified Sch. Dist. v. Newdow. 542 U.S. 1, 12 (2004)
(counseling against federal intervention in “the realm of domestic
relations” given that “the whole subject of the domestic relations of
husband and wife, parent and child, belongs to the laws of the States
and not to the laws of the United States”) (quotation and brackets
omitted), abrogated on other grounds by Lexmark Int'l, Inc, v. Static
Contest Components. Inc., 134 S. Ct. 1377 (2014); Mansell v.
6

;

Case 5:18-cv-05071-JLV Document 42 Filed 11/28/18 Page 7 of 9 PagelD #: 363

Mansell. 490 U.S. 581, 587 (1989) (“[DJomestic relations are
preeminently matters of state law.”); Moore v. Sims. 442 U.S. 415,
435 (1979) (“Family relations are a traditional area of state
concern.”); Tony Alamo Christian Ministries y. Selig. 664 F.3d 1245,
1249 (8th Cir. 2012) (“[TJhere is no doubt that state-court
proceedings regarding the welfare of children reflect an important
state interest that is plainly within the scope of [Younger].”); Liedel
v. Juvenile Ct. of Madison Ctv., Ala.. 891 F.2d 1542, 1546 (11th Cir.
1990) (“[UJnder Younger and Sims federal district courts may not
interfere with ongoing child custody proceedings.”); Morkel v. Davis.
513 F. App’x 724, 728 (10th Cir. 2013) (“This court and other
circuits have consistently applied Younger to child custody cases.”)
(collecting cases).
Id.
Ms. Lewis’ “case is precisely the type of case suited to Younger
abstention.” H.C. ex rel. Gordon v, Koppel, 203 F.3d 610, 613 (9th Cir. 2000).
Ms. Lewis seeks to enjoin the state court and the participants in an on-going
custody dispute from violating her due process rights. Abstention is
warranted in this case “because a federal court should not intervene where
such interference unduly inhibits the legitimate functioning of the . . . state’s
judicial system.” Oglala Sioux Tribe v. Fleming. 904 F.3d 603, 612 (8th Cir.
2018) (internal citation omitted). Therefore, as it pertains to Ms. Lewis’
equitable and injunctive relief that her son be returned to her custody, the
court must abstain pursuant to the Younger doctrine.
In additional to the equitable relief, Ms. Lewis included a demand for
$20,000,000 in actual and punitive damages for the “severe emotional and
?!

mental trauma (i.e. loss of parental bond/relationship, pain and suffering, loss
of wages, loss of home, loss of stability, etc). Most importantly, my son having
7

r~~
Case 5:18-cv-05071-JLV Document 42 Filed 11/28/18 Page 8 of 9 PagelD #: 364

to. deal with the fact that he is being kept away from his Mother (his Mom) - the
only parent he has ever really known.” (Docket 1, p. 9). The Complaint states
a claim for both equitable and monetary damages.
The Eighth Circuit addressed the propriety of dismissal of non-equitable
claims which are intertwined with those claims seeking injunctive relief in
Amerson v. State of Iowa. 94 F.3d 510 (8th Cir. 1996). Typically, abstention
principles only permit federal courts from staying the adjudication of nonequitable claims; not dismissing the action altogether.

Quackenbush v.

Allstate Ins. Co.. 517 U.S. 706 (1996). However, the court must abstain where
a plaintiffs incidental insertion of a § 1983 claim seeking damages “cannot be
awarded without first declaring unconstitutional a state court judgment on a
matter firmly committed to the states.” Amerson. 94 F.3d at 513. Addressing
Ms. Lewis’ § 1983 claims and Bivens claims would require a preliminary
declaration that the previous custody orders were invalid and would require
this court to interfere with the ongoing state court custody dispute in violation
of Younger and the Rooker-Feldman doctrine. “[I]t would be inappropriate for
a federal district court to address a claim that necessitates invalidating a state
court judgment on a matter committed to the states in order to grant the relief
sought.” Icl Therefore, the court must likewise abstain from Ms. Lewis’ nonequitable claims.

8

r~
1

Case 5:18-cv-05071-JLV Document 42 Filed 11/28/18 Page 9 of 9 PagelD #: 365

CONCLUSION
It is therefore recommended that the court abstain from exercising
jurisdiction and dismiss plaintiffs complaint without prejudice. It is
further recommended that the defendants’ motions to dismiss (Docket 15,
27, 29, 32, and 35) be denied as moot.
NOTICE TO PARTIES
The parties have fourteen (14) days after service of this Report and
Recommendation to file written objections pursuant to 28 U.S.C. § 636(b)(1),
unless an extension of time for good cause is obtained.

Failure to file timely

objections will result in the waiver of the right to appeal questions of fact.
Objections must be timely and specific in order to require de novo review by the
District Court.

Thompson v. Nix, 897 F.2d 356 (8th Cir. 1990); Nash v. Black,

781 F.2d 665 (8th Cir. 1986).
Dated November 28, 2018.
BY THE COURT:

DANETA WOLLMANN
UNITED STATES MAGISTRATE JUDGE

9

Case 5:18-cv-05071-JLV Document 76 Filed 03/17/20 Page 1 of 1 PagelD #: 529
UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
No: 19-1443
Aimee Lewis
Appellant
v.
Seventh Circuit Court - South Dakota Unified Judicial System, individual and official capacity,
et al.
Appellees

Appeal from U.S. District Court for the District of South Dakota - Rapid City
(5-18-cv-05071-JL V)
ORDER
The petition for rehearing by the panel is denied.
March 17, 2020

Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
/s/ Michael E. Gans

Additional material
from this filing is
available in the
Clerk's Office.

